No. _________________

In the Supreme Court of the United States
October Term, 2020

EDWIN VIRGILIO GOMEZ, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Edwin Virgilio Gomez, by and through his undersigned attorney,
respectfully moves this Honorable Court for leave to proceed in forma pauperis
and for leave to file the attached Petition for Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit without prepayment of fees. See
Sup. Ct. R. 39.1; 18 U.S.C. § 3006A(d)(7). Petitioner was represented by appointed counsel under the Criminal Justice Act of 1964, as amended, in the
district court and the court of appeals. Leave to proceed in forma pauperis was
never sought in any other court.

Respectfully submitted.

s/ Kristin M. Kimmelman
KRISTIN M. KIMMELMAN
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

DATED: October 7, 2020

